<html>
<title> - U.S. STRATEGY FOR COUNTERING JIHADIST WEB SITES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                 U.S. STRATEGY FOR COUNTERING JIHADIST 
                               WEB SITES

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2010

                               __________

                           Serial No. 111-130

                               __________

        Printed for the use of the Committee on Foreign Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
 61-516PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation and Trade

                   BRAD SHERMAN, California, Chairman
GERALD E. CONNOLLY, Virginia         EDWARD R. ROYCE, California
DAVID SCOTT, Georgia                 TED POE, Texas
DIANE E. WATSON, California          DONALD A. MANZULLO, Illinois
MICHAEL E. McMAHON, New York         JOHN BOOZMAN, Arkansas
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
RON KLEIN, Florida























                            C O N T E N T S


                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Mansour Al-Hadj, Director, Reform in the Arab and Muslim 
  World Project, The Middle East Media Research Institute........     6
Christopher Boucek, Ph.D., Associate, Middle East Program, 
  Carnegie Endowment for International Peace.....................    16
Gregory S. McNeal, J.D., Associate Professor of Law, Pepperdine 
  University.....................................................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Mansour Al-Hadj: Prepared statement..........................     8
Christopher Boucek, Ph.D.: Prepared statement....................    19
Gregory S. McNeal, J.D.: Prepared statement......................    26

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55

 
            U.S. STRATEGY FOR COUNTERING JIHADIST WEB SITES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 2010

              House of Representatives,    
                     Subcommittee on Terrorism,    
                            Nonproliferation and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2175, Rayburn House Office Building, Hon. Brad Sherman 
(chairman of the subcommittee) presiding.
    Mr. Sherman. I want to thank our witnesses for being here.
    I know that the title of this hearing uses the term 
``jihadist,'' which is widely used in the intelligence and 
antiterrorism community. I realize that the term ``jihad'' is 
sometimes used in Islam to describe a personal struggle; and, 
accordingly, I will use the word ``terrorist'' or 
``extremist,'' not that the term ``jihadist'' does not also 
carry with it the meaning, but it has secondary and tertiary 
meanings as well, and obviously those engaged in a personal 
reflection and struggles to improve themselves are not the 
focus of these hearings.
    We have seen extremists use the Internet for a growing 
number of activities, including recruitment, propaganda, 
psychological warfare, and soliciting financial support. 
Today's hearing is to focus on how to best counter those 
activities and basically to ask the question: Why aren't we 
doing so?
    The growing number of instances in which the Internet is 
used for extremist activity is quite long. For example, in 
March, the Washington Post reported that extremists used the 
Internet to pass along U.S. operational information to 
insurgents in Iraq. Perhaps the best-known example is Major 
Hasan, the Fort Hood shooter who was influenced by extremist 
propaganda on the Internet. The five men in Northern Virginia 
who traveled via Pakistan to attack U.S. troops in Afghanistan 
made contact with the extremist organization over the Web as 
well.
    We see groups like Fajr, which not only maintain their own 
Web site but have a dedicated nexus to communicate with other 
extremist groups. One can find the many books and essays 
pushing the extremist position on the line, and you can find 
instructions on how to download extremist content onto your 
cell phone.
    The question is, what is our response? The politically 
correct response is for us to monitor what is going on and 
maybe detect who is visiting these sites. We did a great job of 
determining which sites Major Hasan visited after the terrorist 
incident. Keep in mind that our enemies have decided that, even 
though we have the capacity to monitor, the Internet serves 
their purpose. So those that argue that our ability to monitor 
means that extremist Web sites are helping us more than they 
are helping our enemies have got to reflect on the fact that 
our enemies have analyzed this and come to the exact opposite 
conclusion. The other approach, also politically correct, is to 
reply, read everything on the Internet, and write an essay as 
to why the extremists are wrong and we are right.
    Both of these responses to terrorists' use of the Internet 
have a number of advantages. They are polite, they are 
politically correct, and they involve hiring many people with 
master's degrees in foreign affairs. Being polite and hiring 
lots of people with master's degrees in foreign affairs may be 
the chief mission of our State Department and other national 
security bureaucracies.
    I would prefer to see us shut down these sites. Now, you 
can argue the First Amendment, but the fact is that while you 
cannot scream fire in a crowded theater, you also cannot 
legally try to raise money for terrorists or provide an article 
how to ``Make a bomb in the kitchen of your mom'' or advocate 
that people do so. What we are talking about here are sites 
that are not protected by the U.S. First Amendment.
    The advocacy of taking violent action against Americans 
certainly poses just as great a danger as yelling ``fire'' in a 
crowded theater. We are going to be told that there are lots 
and lots of Web sites, that is true, but they tend to get their 
content from 5 or 10 or 15 providers. So if we should down 
every Web site that provides original content, we will have 
shut down the propaganda machine, the finance machine, the 
recruitment machine that the terrorists are deploying on the 
Internet.
    Now, private citizens have been working to shut down 
extremist Web sites by contacting companies who host these Web 
sites and urging them to take them down. In addition, the U.S. 
military, in at least one publicly reported case, decided to 
shut down a Web site.
    I am going to try to save some of your time by skipping 
some of my prepared remarks here.
    Yet we still have not only the many examples I mentioned 
before, but also Colleen LaRose, commonly called Jihad Jane, 
who was arrested in Philadelphia after months of trying to 
recruit jihadist extremists in the United States. The Los 
Angeles Times reports that this individual was just one of a 
dozen domestic terrorist cases that the FBI disclosed in 2009, 
all of which used the Internet as a tool.
    Anwar al-Awlaki, an extremist leader with ties to al-Qaeda, 
is now being credited as being the brains behind online 
recruitment, particularly in a magazine written in English. I 
mentioned his most famous article regarding making a bomb in a 
kitchen.
    The terrorists very much want to recruit operatives that 
are legally entitled to be in the United States and culturally 
familiar with the United States so that they can act without 
creating suspicion. The best and easiest way for them to reach 
out to American citizens, legal residents, and those familiar 
with our culture is through the Internet.
    During the Bush administration, the military began 
formulating plans for a cyberattack to shut down a Saudi Web 
site, which they reportedly did. Interestingly, the Web site, 
according to the Washington Post, was being operated by a joint 
Saudi-CIA operation in order to collect intelligence on the 
extremists and possible Saudi insurgents. A better degree of 
coordination might be called for in our efforts.
    There is, of course, the naming and shaming, trying to get 
Web site providers to take down certain Web sites. This is not 
always successful. We have people here with technical expertise 
who can perhaps advise us on whether the United States can do 
what we are told high school students are able to do, and that 
is to take down a Web site. And as I pointed out, we could 
take, remove the content from hundreds of Web sites if we were 
able to take down 5 or 10 other sites that are providing the 
content.
    Now, it is attractive to say, well, we should just read 
what the jihadists put up or what the extremists and terrorists 
put up and then respond. Because a lot of us grew up in 
politics, and when you have a good argument, you prevail. I 
have never had an argument good enough to get 99 percent of the 
people in my district to agree with me and only 1 percent to 
agree with my opponent.
    But if I ever did come up with such a good argument, that 
would be fine for my electoral purposes, but it wouldn't be 
successful here. Because if 1 percent of those visiting these 
Web sites do what the Web site authors want them to do, which 
is to become terrorists, then the fact that 99 percent are 
convinced to do otherwise hardly provides us with much solace.
    The only way to be 100 percent convinced or 100 percent 
sure that 100 percent of the people who are visiting a Web site 
are not persuaded by it is to make sure that nobody is visiting 
the Web site. Anything else leaves you struggling to get 50, 
60, 70 percent of the people who are visiting that Web site to 
not be convinced by it. So I look forward to using these 
hearings to see whether we are going to be a polite country or 
a safe country.
    With that, I yield to the distinguished ranking member from 
Orange County, California, Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    I followed your argument there on the percentages, but I 
thought it was interesting because I saw a story the other day 
out of Pakistan that indicated that only 2 percent of people in 
Pakistan believe that al-Qaeda was responsible for 9/11. So 
perhaps the environment is even less conducive in terms of 
trying to make a case when you are dealing with people that 
have so much disinformation.
    One of the questions all of us have is how is it possible 
that this very dangerous jihadist ideology is spreading. The 
argument that the heart of this is really being spread through 
the Internet is an interesting one. I know personally from 
conversations that I have had with a number of people who have 
been radicalized that that played a key role, that that was at 
the heart of how they came to these conclusions.
    I think it is following the way in which this is being used 
not only as a tool to recruit and indoctrinate but the way 
that, beyond that, it is becoming sort of a virtual radical 
Madrassa, these Deobandi schools that we see in Pakistan. Now 
we have these on the Internet. They are walking people through 
this logic or this argument, and they are being used to fund-
raise, they are being used to train, they are being used to 
plot attacks. And if we think about 9/11, you know, al-Qaeda 
used an extremist Web site to help plot that 9/11 attack.
    Today Hezbollah is particularly adept. Following up on that 
competing terrorist organization, they have become adept at 
doing this; and, obviously, it is done pretty cheaply. So you 
have got really a virtual caliphate, as somebody once mentioned 
here. Obviously, many are using these Web sites to target 
Americans with apparent success.
    We had the 9-11 Commission report recently by Tom Kean and 
Lee Hamilton. From time to time, they make pronouncements on, 
you know, the current state of play and the war on terror and 
they have warned about complacency about home-grown terrorism 
and they said we have been--their words--``stumbling blindly'' 
trying to combat it.
    We see the ever steady pace at which this recruiting and 
these attacks are increasing. The report that was filed by the 
members of the commission said they found it--again, their 
words--``fundamentally troubling'' that there is no Federal 
Government agency or department specifically charged with 
identifying the radicalization and recruitment of Americans 
into this process of being radicalized and then becoming 
terrorists. And, of course, it is the Internet that is central 
to that radicalization and recruitment.
    So what to do about these Web sites? There is a debate 
about whether they should be taken down or whether they should 
be monitored, as the chairman referenced.
    Intelligence can be gained on occasion, but we need the 
tools and focus to aggressively attack these sites. At the end 
of the day, we are at war. It is a declared war on the other 
side. They have declared war on the U.S., and we should act 
like we understand that. We should respond to that. One witness 
offers legislative suggestions that I look forward to hearing.
    I commend Mr. Poe, my colleague, who is not with us yet for 
this hearing. He contacted YouTube, and he expressed his 
concern over the rise of terrorist groups posting on it after 
he witnessed some of these videos.
    Some argue that we should be actively monitoring to counter 
radical Internet messages, debating some of these finer points 
over the justification of terrorist acts, for example. I 
understand the concept, but I don't know if our Government has 
the ability to effectively execute such a policy which requires 
a set of specialized and uncommon skills and very deep 
understanding, if you are thinking about somebody sitting there 
engaged in this kind of a debate. We should know also, I think, 
that a bad effort at this would do us harm. If we tried to do 
this and do it badly, we would be in more trouble.
    One academic calls radical Islam on the Internet ``a 
virtual community of hatred.'' How you embark on this is a very 
difficult question and they are very tough waters for a 
bureaucracy to dive into.
    Given that they have declared war on us on the Internet, 
the answer is to take them down. The answer is the obvious 
answer, don't give them the ability to continue to recruit and 
to plan. I would have a bit more confidence if the 
administration better understood the totalitarian ideology that 
we are facing.
    Six years ago, the 9-11 Commission found that ``we are not 
threatened by `terrorism,' some `generic evil' but specifically 
by `Islamist terrorism.' ''
    This remains the threat today, but the commission's 
straight talk is shunned by this administration which prefers 
to speak of ``violent extremism.'' That's the very generic 
threat that the commission rejected. They wanted to name this 
threat for what it was. This blindness is one reason, perhaps, 
that we are ``stumbling blindly,'' as Kean and Hamilton 
regrettably concluded.
    Mr. Chairman, I yield back.
    Mr. Sherman. I wonder if we have an opening statement from 
the vice chairman of the committee.
    Mr. Scott. Well, I will be very brief, but I would like to 
make a couple of statements about this very timely and 
important issue.
    I think if there ever was an example of our becoming 
servants of the machines that were created to serve us, this is 
clearly an example of it.
    The Internet sort of reminds me of the rope that is thrown 
down to a man fallen from a cliff. He can either use that rope 
to pull himself up or use that rope to hang himself.
    The Internet and the use of it by terrorists and criminal 
activity is just mushrooming, and we have got to have the 
ability to be able to adapt our capability of thwarting the 
terrorists' use of it as quickly as we can.
    The topic of today's hearing is one of increasing 
importance as we move through the 21st century and as we 
continue our offensive against terrorist groups, be they 
foreign or jihadist, including al-Qaeda, or domestic, as more 
and more are rapidly becoming.
    The rise of social network and communications platforms 
like Facebook, Twitter, all allow for great, creative, and 
political and economic promise for all of us. It could be a 
rope to pull ourselves up.
    But as we have seen all over the world, political movements 
and demonstrations have been organized through such Internet 
portals from the streets of Tehran to right here in Main 
Street, U.S.A. Spreading messages to the masses has become far 
easier in our interconnected world, and we have got to make 
sure that the United States, our country, remains at the 
forefront of the developing cyberworld in order to advance our 
Nation's interests and to promote freedom and democracy abroad.
    Likewise, this case of communications allows for enemies of 
our basic freedoms, enemies of democracy, to recruit for their 
destructive causes. While pursuing our strategic 
communications, encountering the recruitment attempts of 
terrorist groups, we also must make sure that we don't use this 
to hang ourselves, that our vigilance is tempered by our 
respects to those rights that are endowed by our Creator, that 
we cherish and that are enumerated within our Constitution, the 
values that we represent.
    And this is what I believe should be our primary focus in 
this hearing today. It is a delicate balance I think that we 
walk.
    We have got to be able to intercept and unscramble 
encrypted messages. But we have got to balance it. We have got 
to balance our security needs with protecting the privacy, with 
protecting the democracy, protecting the freedoms.
    Inherent in that freedom is our individual citizen's right 
to privacy. So we have got a challenge here and let us hope 
that at the end of the day that we use this rope we have to 
indeed pull ourselves up to a better country, a better world, 
and not allow it to hang us.
    With that, Mr. Chairman, I yield back.
    Mr. Sherman. Mr. Manzullo, do you have an opening 
statement?
    Mr. Manzullo. No.
    Mr. Sherman. I should note that both witnesses and members 
will have 5 business days or longer, if they ask me for it 
later, to put their full statements in the record.
    I should also say--just to clarify things--I think we are 
all talking about the same enemy, that is to say, those who 
believe in the use of terrorism or other violent means and are 
inspired by a corrupted interpretation of Islam and a corrupted 
interpretation of the concept of Islamic jihad.
    First, I would like to introduce our first witness, Mansour 
Al-Hadj. He is the director of the Reform in the Arab and 
Muslim World Project for the Middle East Media Research 
Institute, MEMRI. Please proceed.

STATEMENT OF MR. MANSOUR AL-HADJ, DIRECTOR, REFORM IN THE ARAB 
   AND MUSLIM WORLD PROJECT, THE MIDDLE EAST MEDIA RESEARCH 
                           INSTITUTE

    Mr. Al-Hadj. Mr. Chairman, Ranking Member Royce, and 
distinguished members of the subcommittee, thank you for 
allowing me to serve as a panelist on this important topic.
    My name is Mansour Al-Hadj. I was born and raised a devout 
Muslim in Saudi Arabia. I earned my degree in Sharia and 
Islamic Studies at the International University of Africa in 
Sudan.
    I am the director of MEMRI's Reform in the Arab and Muslim 
World Project. My work involves focusing on liberal voices and 
advocates of reform in the Arab and Muslim world, including 
those who speak out against online jihad.
    As a youth, I was taught to hate America, the West, Jews 
and Christians. I was taught to love jihad and those who wage 
it. Religious settlements and Islamist pamphlets turned me into 
an extremist by teaching me that Muslims are backward because 
we don't implement Sharia.
    My transformation away from extremism came after reading 
the writing of a peace activist who denounced violence and 
supports the use of nonviolent means of social change. Today, I 
see many Muslims stuck in the same conflict I was. The 
difference is that today Muslims have much more access to the 
source of extremist ideas online through jihadist forums and 
Web sites.
    Jihadist forums on Web sites have played a role in several 
recent terror acts in the United States such as the Fort Hood 
shooting and the failed Times Square bombing. I personally 
witnessed the powerful effect a propaganda campaign can have on 
a young mind. As a student in Sudan, one government recruitment 
effort during the civil war was a jihadist TV series. This show 
documented jihadi fighters imparting their love for jihad. I 
still remember how fascinated I was by their stories and how I 
longed to become one of them.
    Just as the Sudanese Government managed to market the war 
to recruit thousands to join their jihad, terror organizations 
such as al-Qaeda are actively recruiting thousands through the 
Internet. Islamist organizations primarily use the Internet for 
spreading their message and propaganda. It is considered to be 
an integral part of their jihad, and they invest tremendous 
resource in it.
    It is impossible to imagine the development of global jihad 
movement without the Internet. Through MEMRI's research of 
jihadi Web sites, it has discovered that many of them are 
hosted by Internet service providers in the U.S. that are 
unaware of the content due to the language barrier.
    MEMRI addressed Congress on this issue in July, 2007. We 
suggested dealing with the problem by notifying ISPs in the 
United States about what they host in the hope that they would 
voluntarily remove the sites. In the week that followed, 32 out 
of 50 ISPs questioned removed the jihadi sites.
    Opposition to closing these sites came in several 
varieties. First Amendment rights, the Web sites are a source 
of valuable intelligence, and the difficulty in dealing with a 
large number of Web sites were all given as a reason to keep 
the sites active.
    However, we at MEMRI believe that if the key jihadi Web 
sites are shut down, the rest of them will dry up. Most 
importantly, the number of jihadist Web sites has decreased in 
recent years. Currently, the number of highly dangerous sites 
is less than 10.
    It is important to mention that terrorist organizations are 
always on the lookout for other channels to propagate their 
ideology. As jihadists encounter increasing difficulty with 
their Web sites, they discovered Western social media outlets 
such as YouTube, Facebook, and Twitter.
    In fact, YouTube is a primary clearinghouse for one of 
America's most wanted terrorists, Anwar al-Awlaki, who provided 
spiritual guidance and inspiration for several recent 
successful and failed terror attacks in the U.S. al-Awlaki's's 
presence in YouTube is the result of the shutting down of his 
Web site shortly after the Fort Hood shooting.
    At that time, MEMRI reported that al-Awlaki's Web site was 
hosted by an ISP in California. Within 2 hours of the report's 
publication, the ISP removed al-Awlaki's Web site.
    In conclusion, online jihad is a dangerous foe. The U.S. 
must confront it exactly as it confronts other forms of 
extremism on other fronts around the world, both within and 
beyond its border. As with its military ventures, the U.S. must 
initiate cooperation with its allies, international 
organizations, and the business community. Experience shows 
that this can indeed be done.
    Mr. Chairman, this concludes my opening remarks. Thank you 
again for inviting me today. I welcome any questions that you 
or the members may have.
    [The prepared statement of Mr. Al-Hadj follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Sherman. I want to thank you for that testimony and I 
believe your written testimony is longer and, without 
objection, will be made as a part of the record. I recommend to 
my colleagues the first illustrative paragraph of your written 
testimony.
    Next I would like to introduce Christopher Boucek. He is an 
associate in the Carnegie Middle East Program where his 
research focuses on security challenges in the Arabian Gulf and 
North Africa. Please proceed.

STATEMENT OF CHRISTOPHER BOUCEK, PH.D., ASSOCIATE, MIDDLE EAST 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Boucek. Mr. Chairman, Ranking Member, and distinguished 
members of the subcommittee, thank you very much for the 
opportunity to be here today to speak about this very important 
topic. I think I would like to keep my remarks relatively 
brief, as my written testimony has been entered into the 
record, so we can move on to questions that you may have.
    As we all know and as was mentioned in the opening 
statements, the issue of Web sites promoting and propagating 
jihadist terrorist ideology is a serious concern. I think it is 
important that we keep in mind what the Internet does and how 
this plays with recruitment and radicalization. It serves as a 
system to propagate and perpetuate an ideology as well as 
provide ideological cohesion and a sense of belonging across 
great distances. It is an unrivaled source for connectivity for 
sharing information, as well as knowledge, inspiration, 
propaganda, recruitment, and fund-raising efforts.
    What I would really like to do is focus on three aspects 
that I outlined in my written testimony.
    The first is a need for measured response, which I think 
would fall somewhere between the polite versus safe setup that 
we heard in the opening remarks. I would propose that there is 
a need for a very strong and coordinated approach to dealing 
with these issues, and I think that has to come from a basis of 
understanding what these issues are all about and how the 
Internet is being used. There are times that I would say that 
certain Web sites should be shut down or named and shamed, as 
have been outlined.
    I would also say that we need to weigh this against the 
unintended consequences that can arise from doing so. There is 
a value, a considerable value for keeping some of these Web 
sites available for law enforcement intelligence as well as 
research efforts. I think we also need to keep in mind that 
over the last several years a number of experts have pointed 
out how there is a decreasing value in both shutting these down 
and as using them for surveillance or research methods. So I 
think this issue has an awful lot of nuance in it.
    I would like to pick up on a point that was made by the 
previous witness, which is the use of YouTube, especially the 
use of YouTube by al-Qaeda in the Arabian Peninsula. About 3 
months ago, a new YouTube channel appeared branded as AQAP, the 
Islamist al-Qaeda organization based in Yemen, their media 
outlet. This features all of AQAP's videos subtitled into 
English.
    No longer do you need to have access to Arabic. No longer 
do you need to be able to navigate Web forums. In conjunction 
with English language propaganda material, you can now use 
Google and YouTube to access this material, and it is 
everywhere. Taken in the case of Anwar al-Awlaki, his sermons 
and lectures are available widespread, not just on YouTube but 
on an infinite number of outlets.
    It is important to keep in mind that shutting down these 
Web sites will not completely eliminate the sentiment behind 
them, and I think this leads me into my next point, which is 
the need for an increased sense of counter-engagement, I guess 
the read and talk aspect.
    And I think what I would say here is that it is important, 
I think, for us to keep in mind that al-Qaeda is fueled by an 
ideology and a set of ideas and a set of grievances, and we 
need to understand these, and there are some individuals--there 
are multiple pathways to radicalization, and there are some 
individuals who are motivated through religion, who benefit 
from religious discussion. And there are a number of programs 
in other countries--Internet-based, radio-based, television-
based interactive programs--to discuss these issues.
    We don't need to do this all ourselves, and oftentimes we 
probably should not be, and there are ways in which I think we 
can support these programs in other countries. We can support 
moderate--moderate voices that speak out in the region against 
violence. This comes with a caveat that some of those voices 
that are speaking out against violence are probably also 
speaking out on issues that would be of great displeasure to a 
number of people in this country. So we need to weigh the 
balance of these issues.
    The last point I would like to make is how we look forward 
on some suggestions, and this is why I would highlight need for 
research and further research. I guess this is no surprise 
coming from an academic and a researcher. I think, basically, I 
would say that it is unbelievable to me that almost 10 years 
into this struggle we have yet to fully set up a way to address 
dealing with these issues.
    If you look 10 years into the Cold War, we had a much, much 
better developed understanding of the Soviet Union, China, 
communism, socialism, the Russian language, Chinese. We are 
nowhere near that dealing with this issue. Across military, 
universities, higher education, I mean, this is shocking to me 
and I think this is something that we need to fix straightaway.
    I think we also need to keep in mind that the Internet is 
not always a perfect mirror for what is going on in the ground 
in a lot of these countries. I think it is very easy to use the 
Internet to try to understand what is going in places where 
most Americans don't go, if it is Peshawar or Marab or other 
places, but there is no replacement for actual on-the-ground 
field research and interaction with people.
    With that, I would like to highlight several other points, 
and I think that there are ways that, because this is an 
argument based on ideology and ideas, we can highlight the 
flaws and the inherent discrepancies in these arguments. I 
think doing this in conjunction with the more rigorous shut-
down approach is probably where I would say we should head 
forward.
    With that, I would like to conclude my remarks. Thank you 
very much, and I look forward to your questions.
    [The prepared statement of Mr. Boucek follows:]

    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Sherman. We will now hear from our third witness, Mr. 
Gregory McNeal. Mr. McNeal is an associate professor of law at 
Pepperdine University School of Law located immediately 
adjacent to the 27th Congressional District and previously 
found in the 24th Congressional District of California. He has 
also served in an advisory capacity on counterterrorism policy 
to the Departments of Defense and Justice.
    Mr. McNeal.

 STATEMENT OF GREGORY S. MCNEAL, J.D., ASSOCIATE PROFESSOR OF 
                   LAW, PEPPERDINE UNIVERSITY

    Mr. McNeal. Chairman Sherman, Ranking Member Royce, 
distinguished members of the subcommittee, it is an honor to be 
here today to speak about the threat of terrorist Web sites and 
the U.S. strategy to counter them.
    As a professor at Pepperdine University, I specialize in 
national security law and policy, and I have written 
specifically about the threat of terrorist Web sites.
    As a California resident, it is an honor to be here 
speaking before the subcommittee, which has been so ably led by 
California representatives, Congressmen Sherman and Royce.
    In the era of home-grown terrorist plots, terrorist Web 
sites are a grave threat to national security, which require a 
three-pronged approach to combating them. That approach 
combines monitoring for intelligence value, elimination and 
destruction for operational gains, and co-optation for 
propaganda and ideological value. My remarks today and my 
written testimony focus on the elimination and destruction of 
terrorist Web sites.
    Eliminating selected extremist Web sites will enhance our 
ability to collect intelligence by narrowing the field of enemy 
sites we must monitor. A small number of Web sites will allow 
for target efforts to undermine the jihadist message. Finally, 
efforts which keep the enemy on the move impose costs on them. 
They delegitimize them and at the margins make it more 
difficult for potential recruits to become radicalized.
    Today's headlines about a plot to engage in coordinated 
Mumbai-style terrorist attacks reveals the critical importance 
of countering the terrorist Web presence. Home-grown, low-
sophistication, high-casualty plots are increasingly 
facilitated by jihadist Web sites.
    Consider just a handful of our close calls here within the 
United States.
    Nidal Hasan, the Fort Hood attacker, was inspired by and 
radicalized by terrorist Web sites. Those Web sites now hold 
him up as a symbol of successful, home-grown attacks.
    Najibullah Zazi, who planned a second series of attacks 
against the New York City subway system, was radicalized and 
educated through jihadist Web sites.
    Faisal Shahzad, the Times Square bomber, was radicalized 
through terrorist Web sites. It was there that he found his 
inspiration and fixity of purpose that drove him to carry out 
his attack.
    Internet images of jihad were the singular tie binding 
together the efforts of the Fort Dix plotters. And, moreover, 
in the case of Ohio terrorists Mohammad Amawi, Marwan El-Hindi 
and Wassam Mazloum, terrorist Web sites were the motivating and 
enabling factor in the recruitment, providing them with 
information about how to build bombs.
    The common theme running throughout nearly every attempted 
attack since September 11 is a radical ideology. That ideology 
finds its home in a small core of Web sites with close 
operational ties to al-Qaeda. Those core forums are the 
mainstream media of extremist ideology. They have the label of 
legitimacy. Their stories, videos, training materials, and 
directives are picked up by mirror sites and repeated 
throughout the Web. We should be disrupting their operations.
    I would like to address a common myth that shutting down 
terrorist Web sites does not work. I say this is a myth 
because, to date, there has been no concerted government effort 
to shut down these sites. I readily admit that the terrorist 
Web presence cannot be eliminated, but that is not the goal of 
what I am advocating for. Rather, the goal I believe we should 
be pursuing is to impose costs on our enemies in time and 
resources to narrow their potential Web hosts and corral them 
into places of our choosing so we can monitor and co-op them. 
It should not be easy for our enemies to recruit, train, and 
proselytize.
    The Internet is not a battlefield that should operate 
according to the directives of our enemies. Rather, it is a 
battle space that we should own. On the traditional 
battlefield, few would argue that we should forego killing and 
capturing terrorists merely because they may be quickly 
replaced. Yet when it comes to the Internet that is exactly 
what those who are opposed to shutting down these Web sites are 
advocating for. Now, I am speaking in terms of warfare.
    However, the fight against terrorist Web sites must be an 
interagency effort. The intelligence community, the military, 
law enforcement, and the State Department are all key players 
in a comprehensive strategy to counter the threat of jihadist 
Web sites. However, this should not be solely the province of 
the executive branch. In fact, I believe that comprehensive 
legislation directing and prescribing the activities of each 
agency in the cyber realm is essential to national security.
    Congress can and should make its mark before the executive 
branch takes actions on its own, forming precedent without 
policy. The threat of jihadist Web sites is one part of a 
broader need for legislation directing of our Nation's cyber 
war efforts. The key to countering the influence of terrorist 
Web sites is to first ensure that those Web sites do not 
receive any support from U.S. Web hosts. This can be 
accomplished through application of existing laws and shaming 
techniques. Second, we should eliminate selected sites using 
existing statutes and Treasury regulations. Third, we should 
work with allies to target those individuals who are supporting 
Web sites abroad that are beyond the reach of our law. And, 
finally, when necessary, actions should be taken by the 
Pentagon's Joint Functional Component Command Network-Warfare 
Unit and Cyber Command to shut down selected Web sites. 
However, this should only be done after coordination and 
consultation with the intelligence, law enforcement, and 
diplomatic community; and Congress should be regularly informed 
of these actions. Following these steps will go a long way 
toward countering the influence of jihadist Web sites.
    This concludes my formal remarks.
    [The prepared statement of Mr. McNeal follows:]

    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Sherman. I thank you, Professor, and since you are 
suggesting legislation--my law school professors used to assign 
homework. I have always wanted to reverse that. So if you 
haven't done so already, your homework assignment is to draft 
proposed legislation implementing what you are talking about. 
Unless you have already done that.
    Mr. McNeal. Mr. Sherman, I would be happy to work with the 
committee on drafting that legislation.
    Mr. Sherman. And they say this job doesn't have perks. I 
just gave a homework assignment to a law professor.
    We are going to hear, first, questions from our ranking 
member, Mr. Royce. 
    Mr. Royce. Let me ask a question of Mansour. You mentioned 
that your move away from radical Islam or jihadist thinking 
came as a result of an article that you read. I wondered if you 
had read that on a Web site or if it was a pamphlet. I am 
wondering how that idea got in circulation. You were in Sudan, 
I think, at the time?
    Mr. Al-Hadj. Saudi Arabia.
    Mr. Royce. Saudi Arabia. I would also ask if--that is 
Khales--what did you say his name was? Khales Jalabi?
    Mr. Al-Hadj. Khales Jalabi, yes.
    Mr. Royce. Is he widely read today? Is there sort of a 
movement in Saudi Arabia?
    No, not really?
    Mr. Al-Hadj. Not really. He basically is considered like a 
bad guy or something because he is against jihad. I mean, he 
interprets Koran and jihad in Koran in another way, in a 
peaceful way, and the radicals don't like him.
    Mr. Royce. Tell me a little bit, real quickly.
    Somebody behind you wanted to make a comment, I guess.
    Ms. Alhani. Yes, because you were asking him about Khales 
Jalabi, I would just add something he didn't know maybe, that 
he is a Syrian writer. He writes--but, as you know, a writer. 
He is Islamic, but he is not a radicalist or criminalist 
either.
    Mr. Royce. I see.
    Mr. Sherman. Normally, we don't hear from anyone sitting in 
the audience, but you are allowed to--but the one requirement 
is that the woman who just spoke needs to identify herself for 
the record. Can you give us your name, please?
    Ms. Alhani. I am Fawziah Alhani. I am a human rights 
activist. I was attending another conference here.
    Mr. Sherman. Thank you for your name.
    Mr. Royce. What I was trying to understand better was, in 
society, you went to a particular school and in that school 
these ideas were prevalent. Was the institution that you were 
in dissimilar in some ways to other schools or do you think 
this is sort of the mindset that many teachers have?
    Mr. Al-Hadj. Yes. I went to college in Sudan, the 
International University of Africa. In that university there 
are students from all parts of Africa and the world. Actually, 
there are American students, too.
    That is an Islamic university. The things that they are 
teaching there are just anti-Western things; and, actually, 
one--many of the students at the time when I was there, they go 
and wage jihad. They are highly respected. They don't have to 
attend any classes, and they would really pass the exams 
without anything. And, actually, one of my professors died--he 
lost his life in this jihad.
    So the Islamist Government of Sudan, doing this, you know, 
to spread their ideology, they want to have as many Islamic 
States in Africa or around the world. So they are spreading 
this through bringing students, giving them free scholarships 
to come to this particular school, and teaching them this anti-
Western and anti-human rights and things.
    So the day of the 9/11, when the Towers hit, I was there. I 
was a student there, and all that you hear is the cheers and 
people were very happy, without knowing what happened, who did 
that. Just because America was hit, it's something very happy 
for them.
    Mr. Royce. I have been to Sudan and Darfur. One of the 
concerns I have about the particular institutions that we are 
talking about is the way they push martyrdom but also the way 
they pushed sort of a genocidal campaign, originally in South 
Sudan, and now it is in Darfur. But in South Sudan that is when 
you were there, they were pushing this idea.
    And just to get off the topic for a minute, is it realistic 
to think that the government in Khartoum, with this recent 
history of promoting the type of jihad that we saw carried out, 
including the genocidal campaigns, would be willing to allow 
for the south to secede if that is the referendum's outcome 
that is in Sudan? You don't have to answer that, but I do 
wonder.
    The Sudan Government has made this agreement, but given 
what the old National Islamic Front Government did in terms of 
creating this atmosphere, I wonder if it is possible for them 
to live with the result of the referendum in the south.
    Mr. Al-Hadj. Well, right now, they are coming with some 
ideas. They actually are thinking of delaying the referendum; 
and, you know, they are really bothered by, you know, American 
support for the right for southern Sudanese to choose whether 
they stay united with one Sudan or have their own country. But 
for them that would be problematic, and I don't think they 
would allow that to happen.
    Mr. Royce. One other quick question. In Saudi Arabia, how 
prevalent do you think the teaching in the textbooks and so 
forth--what is the prevailing view on this kind of activity? 
What is the mindset in the schools?
    Mr. Al-Hadj. Well, I was--I went to school in Saudi Arabia, 
and the textbooks are really--they are anti-Western things. 
They teach us that, you know, a Muslim and Jewish are enemies 
at the end of the day, and sometimes in the future they will 
fight each other. And even the trees and stone will help the 
Muslim kill the Jewish. So these things, I--you know, they 
taught me these things.
    Mr. Royce. Yes.
    Mr. Al-Hadj. And one of the things that, you know, I now 
feel really sorry about it, that, in the past, they taught us 
the story of our Prophet Muhammad killing a whole tribe, the 
Banu Qurayza tribe in Medina, because of treason or something. 
When I hear that story, when I was young, you know, it didn't 
make any difference. I didn't feel any sorry. I didn't think 
that the Prophet, you know, had done something really horrible.
    So, you know, there is no way of questioning the history of 
Islam. And, actually, right now, one religious guy in Saudi 
Arabia, he is one of the writers of the textbooks, the new 
textbooks. He is really radical, and he actually wants to have 
like separation in the grand mosques so women can be, you know, 
on one side and men can be on the other side, and he is one of 
the people who is writing the books for kids.
    So it is in there, and it needs to be reformed.
    Mr. Royce. If I could ask one more question, and I will ask 
that of Dr. McNeal.
    You mentioned in your testimony, Dr. McNeal, that Treasury 
has not aggressively attempted to cut off cyber services to 
terrorism supporters, not even key al-Qaeda facilitators. I was 
going to ask you why, and what grade would you give that effort 
in the last administration as well as in this administration? 
What is afoot here?
    Mr. McNeal. I would be hesitant to give a, grade only 
because I haven't seen all the papers before me to grade all of 
them. But Treasury can do more, and it is obvious they can do 
more. In my written remarks, I highlighted a Web site of a key 
al-Qaeda facilitator who is still receiving domain-name 
services from a company in Oregon. This was as of Monday, I 
conducted the search and found the Web site myself. It included 
some Google-translated passages of advocacy of jihad. So that 
suggests to me on the surface that there could be a resource 
issue or a focus issue.
    So that is not meant to disparage the efforts of those at 
Treasury, but, rather, suggest that maybe greater direction or 
focus needs to be placed on this problem. And I don't think 
across the executive branch there has been a focus on these Web 
sites, as indicated by both your opening remarks and 
Congressman Sherman's opening remarks. So it is a matter of 
motivation rather than a matter of desire, I think.
    Mr. Royce. Thank you.
    I am out of time. I yield back, Mr. Chairman.
    Mr. Sherman. Thank you, Mr. Royce.
    I should point out that Congressman Ellison may be back. He 
is not a member of this subcommittee, but he does have the 
great honor of serving on the full committee, and he will be 
allowed to ask questions of the witnesses after members of the 
subcommittee have completed their questioning.
    With that, I will recognize Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Al-Hadj, your testimony and your comments are both 
enlightening and yet troubling, because it seems to me the 
culture of many of our Muslim countries and the whole attitude 
of the younger generations that are coming along, the anti-
West, anti-United States, anti-Jewish sentiment appears to be 
growing instead of receding. Is that a fair statement?
    Mr. Al-Hadj. I think so, yes, because of many things. These 
things, they are in the saying of the prophet. And the media in 
the Middle East is always trying to show the U.S. as the cause 
of every problem on Muslim people around the world. So it is an 
anti-Western notion that really keeps on growing. And something 
that the Muslim community here in the United States are not 
doing is to speak out and go and tell people that we are not 
disenfranchised here in America. We enjoy all the freedom and 
things.
    I came to this country 5 years ago. And when I chat with my 
friends, they ask me, Hey, are you allowed to go to the mosque? 
Does nobody cause you any problems? Are Muslims hated in 
America? But this is not true. I don't see an anti-Muslim 
thing. But when you see the media and the Muslim activists or 
Muslim organizations when they appear in the media, they are 
always trying to make themselves as victims, and there is 
really anti-Muslim things going on in America, but this is not 
true.
    Mr. Scott. There has to be some element of responsibility 
taken by the leadership in some of our more moderate Muslim 
countries. What is holding that back? Is there a fear, there is 
a reluctance? Because no matter what we do--I mean, if somebody 
hates you because you are Jewish or if somebody hates you 
because you are from the United States, no matter what we do, 
we are not the instrument that can change that.
    Something has to change within the culture over there, and 
I just don't see positive forward leadership on the part of 
people who you would feel--educated, who work with this 
country, have relationships with it--not taking the leadership 
in these Muslim communities to correct this perception. No 
matter what we do, we may get interception dealing with the 
Internet, but that is not going to stop until we can change 
some attitudes and reverse this trend of anti-Americanism and 
anti-Israel and Jewish feelings within the Muslim world.
    Quite honestly, the tragedy of the situation is that if it 
does not happen, we are headed down a very, very dangerous road 
here if we don't get some cooperation from the Muslim world and 
the leadership to help correct this perception. Because if what 
you say is true of how these younger people are just getting 
this hatred, unfounded, we are not the answer to that because 
we are the devil to them, we are the Satan to them. It has to 
come from the Muslim community itself.
    I don't want to belabor that, but I hope we have some signs 
of hope there. Do we? Do we have some signs of hope that we can 
get some counter--to me that is the best counterterrorism we 
could have, help coming from the Muslim communities to 
straighten out a lot of the misinformation that is formulating 
these attitudes that make these young people ripe for 
recruitment.
    I just came from a trip over into Africa and went into the 
Casablanca area. And that country, Morocco, surprisingly, is a 
leading country in recruiting terrorists. And supposedly it is 
our friend. I mean, we give money there, Rick's Cafe is there; 
a great American movie was named for it called Casablanca--you 
probably don't remember that--starring Humphrey Bogart some 
years ago.
    But anyway, I would hope that this committee hearing can at 
least--we can make a dramatic statement that we need to get 
greater cooperation from the moderate Muslim leadership in the 
world to help us in this. I think that is going to be the way 
it will do.
    But let me ask you, Mr. McNeal, in your testimony you wrote 
that independent watchdog sites stand in the best position to 
monitor jihadi extremist sites. Let me ask you in relationship 
to that, what is being done to ensure that independent watchdog 
sites are acting legally and appropriately?
    Mr. McNeal. It would be difficult to imagine how, short of 
them shutting a Web site down themselves, how they would be 
violating the law. Generally, these independent watchdog sites 
monitor these Web sites and then use shaming techniques to try 
to get the Web sites shut down.
    We heard Mr. Al-Hadj's example about--I think it was 32 out 
of 50 or something, pretty good result, of Internet service 
providers who, once they are notified that these jihadist Web 
sites are present on their servers, they shut them down 
voluntarily. And so, short of these watchdog groups engaging in 
some sort of denial of service attack, there isn't a violation 
of the law there.
    And I think actually that these watchdog groups should be 
encouraged in that respect, because the Web is so expansive, 
the Web sites are so dynamic in switching servers that the 
Federal Government wouldn't be able to do it on its own. This 
is sort of the equivalent of your local neighborhood watch 
providing tips to law enforcement about crimes being committed 
in the community.
    I think the shortfall is that when these Web sites inform 
law enforcement--or Treasury, let's say, about the presence--
when these watchdogs inform law enforcement about the presence 
of these Web sites, it is not always followed up on. And we 
have tools to issue cease-and-desist orders to Web hosts who 
are providing services to designated groups; however, if it is 
a nondesignated group, it is just a person advocating jihad, 
there is currently no law which allows us to have that type of 
material removed from a Web site. The YouTube examples that 
were cited earlier are a prime example of that. But I think for 
the most part these groups, unless they are conducting direct 
attacks against Web sites, are not violating the law.
    Mr. Scott. Okay. Let me go back to you for a moment, Mr. 
Boucek--I don't mean to murder everybody's name up there, but I 
did get McNeal right. I could handle that.
    You wrote that to get ahead of al-Qaeda and Islamic 
extremism more broadly, we will need to shift to be proactive 
and not just reactive.
    That brings me to the point I mentioned first in my 
questioning with Mr. Al-Hadj; and that is, what more can we do 
to encourage the moderate voices? Because I sincerely believe 
this is the key going forward. We have got to figure out a way 
to break down this wall and to turn this attitude around or 
else we are just chasing our tail here.
    What do you think more we could do to encourage the 
moderate voices in the Arab and Muslim world, some that have 
already, to a degree, spoken out against violence and 
extremism? What more can we do, or should we be doing to 
encourage this? Are you satisfied with where we are?
    Mr. Boucek. Thank you very much.
    I think this is an excellent question. I think there is an 
awful lot that we can do, because there are an increasing 
number of moderate voices speaking out against violence in the 
region. I think you could come up with a huge list of clerics 
and sheiks and officials throughout the Muslim world, in Saudi 
Arabia and Egypt, who have spoken out saying that violence and 
terrorism is wrong and have taken action to criminalize these 
activities.
    I think there are things we can do to help get that message 
out. I think we can begin by probably starting from a position 
that we need to know more about them so we can talk about them. 
But also I think there are ways that we can help get those 
messages out by promoting cooperation amongst different 
countries. So sharing best practices and technologies for how 
to get these messages out, how to do education. I also think 
there are probably ways that you can manipulate search results 
and do other things, which is far beyond my technical 
education.
    I think another interesting point that I think leads to 
something you mentioned earlier in your remarks is this issue 
of this rising anti-American or anti-Western sentiment. I think 
there are lots of causes for that. And I think it is not just 
religious motivation, I think it is a whole range of things 
from social conditions, governments, education, corruption, 
that feed into this process. So I think we need to step back 
and say that there is a much larger cause for it.
    I think we also need to recognize that as there are many 
pathways of how people do get into violence or radicalization, 
people do step back from it. There is a growing body of 
research to suggest that people do leave militant groups and 
terrorist organizations. Once we understand this better, we can 
help facilitate that process, I think.
    Mr. Sherman. I will now call upon Mr. Ellison for 5 minutes 
of questioning.
    Mr. Ellison. Well, let me thank Chairman Sherman for this 
hearing. I think it is very important. Unfortunately, due to 
multiple demands, I wasn't able to hear all of the testimony, 
but I appreciate the work that you all have done. I think it is 
important.
    I think that we don't know nearly enough, and the pursuit 
of how to be more effective in countering violent 
radicalization is something we all have to devote more time and 
energy to. But since I didn't get to hear everything, let me 
just throw out a few ideas I have had and perhaps I can get 
your reaction.
    I think that what needs to happen most of all here is that 
these Web sites need to have some competition of ideas. And 
what I mean by that is that if you suppress a Web site--and any 
Web site that is proposing violent radicalization or how to--I 
think you just get rid of it and that is the right thing to do. 
But one that is just offering these extremist ideas, I think it 
may be more effective to compete with their ideology rather 
than simply suppress it. And the reason why is that these 
people who--it seems to me their essential argument is that 
America is at war with Islam. America is not at war with any 
religion. America is at peace with all religions.
    But if they want to argue that America is at war with 
Islam, the most effective thing to do is not simply to suppress 
the argument, but to actually take that argument head-on by 
talking about a number of things like our Constitution and 
freedom of religion, by talking about how Muslim Americans are 
doing, actually prospering pretty well; by talking about how 
leaders like Michael Bloomberg have stood up and said that the 
Manhattan Islamic Center has as much right to be there as any 
other institution does; how the President stood up and spoke on 
this issue; and how leaders--Muslim, Christian, Jewish of 
various faiths--said that the threatened Koran burning was 
reprehensible.
    I mean, I think that we should take on this claim that 
America is at war with Islam, because I am clear that it is 
not; and yet if we just suppress it and don't really offer a 
competing vision, then we may be missing an opportunity, and we 
might even hand these people an opportunity to say, See, this 
is just them trying to--they don't want you to hear our side, 
kind of, argument.
    Let me also offer you these ideas because I know the title 
of this hearing today is Jihadist Web sites. Personally, I 
don't like the terminology. And the reason why is that, to a 
Western audience the word ``jihad'' is a foreign word, it 
sounds scary, it is certainly used in a scary way, and so it 
whips us up over here in America. But to the Arabic-speaking 
world, it is much more akin to the term ``freedom fighter.'' So 
why would we let----
    Mr. Sherman. Mr. Ellison, in my opening remarks I did 
comment on the preferred term being something along the lines 
of ``terrorist'' or ``extremist,'' and discussed how the word 
``jihadist'' might----
    Mr. Ellison. Yes. And that is not meant as a critique, and 
I appreciate your acknowledging that, Chairman Sherman. And let 
me just say this quite simply, and you all may agree or 
disagree, from the standpoint of Anwar al-Awlaki, he wants to 
associate what he is talking about with Islam so that he can go 
out to the Muslim world and say, I am the standard bearer for 
Islam and I want you to do this in defense of Islam. Well, we 
should strip them of that and say, You are not representing 
Islam, you are representing murder and killing. And so they 
would love to use Islam as a veneer to sort of market their 
ideas, and I think we should really figure out how do we deny 
them that.
    I was making this point with somebody a few months ago and 
they said, Well, this is what they call themselves. I said, 
Well, that is exactly why we shouldn't call them that. None of 
us would say that Timothy McVeigh is a freedom fighter, even if 
he called himself that; we call him a mass murderer. Well, we 
should call Anwar al-Awlaki a promoter of mass murder and we 
should call Osama bin Ladenan actual mass murderer.
    So whenever we say Islamic terrorists, Islamic--we are 
always associating it with Islam. I think that we think we are 
standing up against the bad guys, but I think we may 
unwittingly be actually helping to reinforce their argument.
    I haven't dropped it yet, but I am actually really sort of 
thinking a lot about perhaps a study bill on violent 
radicalization. I know Jane Harman has done this in the past. 
It was met by many people in the civil rights and civil 
liberties community with opposition, because they thought it 
would lead to violation of human and civil rights.
    I guess I am running out of time, but if I may, could I 
wrap up, Mr. Chairman?
    Mr. Sherman. You may.
    Mr. Ellison. I think that we don't know enough about the 
topic, which is why we profile, which is why we stop the guy 
with the worry beads and the beard and kick him off the plane, 
when we are letting the other one go by who is the real danger.
    I have pontificated long enough. Thank you very much for 
listening. And if there is ever any time, I would love to hear 
your views on what I said.
    Mr. Sherman. I thank the gentleman.
    I would comment that in my district, a mosque is being 
built, and the only controversy is whether it has enough 
parking spaces.
    An article in the Case Western Reserve University Journal 
of International Law discusses the strategy for containing and 
removing terrorist material through a process of shaming those 
who provide the Web sites to extremists. Limiting the countries 
which host these Web sites, they argue, will make it easier to 
track and control.
    Dr. Boucek, is the strategy of just naming, shaming, 
viable? And in particular, in your testimony you talk about 
YouTube, and apparently al-Qaeda in the Arabian Peninsula has a 
site. I know I have a site, Keith has a site, David has a site. 
Is that site still up just because nobody has bothered to 
contact YouTube, or is it up because YouTube has decided to 
leave it up?
    Mr. Boucek. Thank you very much.
    Taking your last point first, I cannot tell you why it is 
still up. At least earlier this week, on Monday----
    Mr. Sherman. Are you aware of anybody who has contacted 
YouTube and said, ``Hey, do you know about this?''
    Mr. Boucek. There are some people who have mentioned this 
before. I don't think it is very well known that there is this 
site. Probably more disturbing, the video content that is 
available has been replicated across any number of other sites 
now. The very concerning thing to me, though----
    Mr. Sherman. You obviously find these sites. When you 
personally find them, do you drop a line to YouTube? Do they 
read their mail?
    Mr. Boucek. In this case, no, I have not.
    Mr. Sherman. Well, homework assignments are not limited to 
law professors. To start this out, give me a list of the sites. 
I will put a letterhead on top of it just to make sure that it 
is read by somebody at a more senior level and we will see what 
happens.
    Mr. McNeal. Chairman Sherman, just on that point, may I 
interject?
    Mr. Sherman. Yes.
    Mr. McNeal. About a year ago, Senator Lieberman sent 
letters to YouTube requesting this, and their response was they 
will evaluate content that is flagged as inappropriate, but 
they value individuals' free-speech rights. So we have a legal 
limitation because under section 230 of the Communications 
Decency Act, Web providers, it is up to them whether or not 
they can take something down and determine whether or not it is 
obscene.
    Mr. Sherman. Well, this is not obscene; this is put up by a 
terrorist organization. This seems to have some of the content 
of al-Qaeda in the Arabian Peninsula. This is the official site 
of al-Qaeda. I don't think there is any doubt that our 
terrorism laws do not allow U.S. corporations to do business 
with terrorist organizations.
    Mr. Boucek. I am able to explain why this particular 
YouTube channel is still available.
    Over the summer, in July----
    Mr. Sherman. Well, we have a law professor here as well. 
Let's say somebody is inspired by this site, and let's say they 
kill somebody; are you certain that YouTube would escape civil 
liability?
    Mr. McNeal. I am certain they would escape criminal 
liability. I am not certain if they would escape civil 
liability. I believe the issue and the argument that was put 
forth by YouTube, when this came up last year, is that it is 
difficult for them to isolate the identity of who it is. And so 
their site may say, We are the official YouTube channel of al-
Qaeda in the Arabian Peninsula. But YouTube is unable to verify 
that, and therefore their policy is one of openness and 
dialogue and shout-down, that type of thing.
    Mr. Sherman. Terrorism laws would be absolutely meaningless 
if you could do business with a terrorist organization 
operating under its own name and say, ``Well, there was no 
certified letter from a deity proving that there was in fact a 
terrorist organization.''
    Mr. McNeal. Chairman Sherman, we are in agreement on this. 
I think that more action needs to be taken and screws need to 
be turned against these service providers, whether they are the 
biggest, YouTube, or the smallest----
    Mr. Sherman. Well, I don't know how much money YouTube 
makes and how much its executives make, but they are 
endangering people throughout America for their own profit. And 
it is not out of great loyalty to the concept of the First 
Amendment, it is out of great loyalty to money. They feel that 
if they let everybody on, that just makes a little bit more 
money for them. And for them to endanger lives nationwide for 
that reason is a decision that they have made. And if they want 
to take down my site, they are welcome to. As a matter of fact, 
this will be up on my site.
    Yes.
    Mr. Boucek. I think the only point that I can contribute to 
this is that in the beginning of July there was the release of 
this English-speaking magazine, ``Inspire,'' that you had 
alluded to in your opening remarks. Shortly thereafter, this 
channel appeared. I think one can draw the conclusion that 
there is a connection. As of this week when I checked this 
channel, all of the videos are still available, and this person 
is accessing this site frequently and updating this material.
    Mr. Sherman. So this is a secondary site that is taking its 
content from the site of YouTube----
    Mr. Boucek. No. This is the YouTube channel that we have 
been discussing.
    Mr. Sherman. Okay. So this is a channel that brands itself 
as the official site of al-Qaeda in the Arabian Peninsula.
    Mr. Boucek. That is correct. It brands itself as the media 
arm for AQAP. And the very concerning thing, which I think we 
have all highlighted, is that you no longer need to have much 
knowledge or language capacity to access this. You can get all 
of these videos and you can consume them, just knowing English 
from anywhere.
    Mr. Sherman. Now, does the content of this site advocate 
violent action against Americans?
    Mr. Boucek. I think al-Qaeda in the Arabian Peninsula has 
been very clear about its positions.
    Mr. Sherman. I know what their positions are, but in terms 
of what they have chosen to put up.
    Mr. Boucek. In some of the videos they have been advocating 
violence against American interests, American allies, American 
partners. I think that there is no reason why this should be 
available. I can't give you an answer on that.
    Mr. Sherman. And is there material there that provides 
useful information to those who wish to be terrorists as to how 
to make a bomb, how to sneak in a bomb?
    Mr. Boucek. Just real quickly I would say, as opposed to 
``Inspire'' magazine that provides actual tactical 
information--how to assemble explosives, what to bring on 
jihad, how to engage in operations--what this does is provide 
you with the theological and ideological justifications to get 
you to that point.
    Mr. Sherman. Okay. But it is a little bit more provable 
that something is reprehensible when it says, Here is how to 
make a bomb, rather than, ``Here is why American foreign policy 
is so bad that you should hate America.'' There are aspects of 
U.S. policy that I personally hate.
    Let me hear from Mr. Al-Hadj.
    Mr. Al-Hadj. Thank you, Mr. Chairman.
    As I was coming to this hearing, one of the jihadi Web 
sites linked its site to a Facebook account. And the last thing 
I saw was a post on how you can make a car bomb like the one 
Faisal Shahzad did. And they are encouraging people, like 
specific details on how you can make----
    Mr. Sherman. I am going to ask you to suspend for just 1 
second.
    Please proceed.
    Mr. Al-Hadj. Yes. As I was coming here, there was this post 
on Facebook----
    Mr. Sherman. And let me just remark for the record, the 
U.S. Government does have efforts to put things up on the Web 
that are part of our public diplomacy program to debunk what 
terrorists have to say. I know that is important to the 
gentleman from Minnesota.
    As to whether there will be further efforts is something I 
can talk to him about on the floor. But I do think the record 
should reflect that while we are discussing what the terrorists 
are doing on the Web site, we are of course using the Internet 
to communicate a much more wholesome message.
    The gentleman will proceed.
    Mr. Al-Hadj. So Facebook was posting the same post that was 
on this jihadi Web site, encouraging lone wolves or individuals 
who want to persecute an operation or a suicide mission, how 
specifically--with small details how to make a car bomb, what 
should you buy, like materials, easy materials, very accessible 
to everybody--how you can make a car bomb and do it.
    Mr. Sherman. So you go to Facebook, and then that refers 
you to a site that gives you not just ideology, but ``how to'' 
practical information for terrorism.
    Mr. Al-Hadj. You go to the jihadi Web site and there is a 
Facebook sign on it saying, ``You can join us on Facebook.'' So 
once you click there, you will receive whatever they post in 
there.
    Mr. Sherman. Thank you.
    Mr. McNeal, we can always ask somebody to take material 
down. Some sites in certain countries won't do that. How easy 
is it for us as a technical matter to just use cyber attack and 
take the site down?
    Mr. McNeal. We have the capacity. There was an example I 
think that you alluded to in your opening remarks that was 
reported in the Washington Post about a site that was known 
as--the term in the field is a ``honey pot.'' It is 
purposefully set up to bring in terrorists and track them. This 
was a joint operation between the CIA and the Saudi Government.
    Mr. Sherman. And that is the one we took down?
    Mr. McNeal. That is the one we took down. But actually, the 
debate over it was a healthy one that we should be having more 
of. The reason we took it down is that our commanding general 
in Iraq, General Odienero, said that this site was in fact 
costing American lives. And there was an interagency fight 
between DOD and the Intelligence Community on whether or not to 
take the site down.
    Mr. Sherman. Was it taken down because it was a site 
sponsored by the U.S. Government and they just flipped the off 
switch, or did we cyber attack a site that another government 
agency was paying to put up?
    Mr. McNeal. From the public reports, we took out a site 
that was run by the Saudi Government, with the cooperation of 
the Central Intelligence Agency. The rationale for it was that 
the site was providing information about how to conduct 
coordinated attacks on U.S. troops in Iraq. And what happens in 
these types of interagency----
    Mr. Sherman. Did we use a cyber attack to take it down?
    Mr. McNeal. Yes, it was a denial-of-service attack. The 
collateral consequences of that, though, were that not only was 
this site taken down, there were some sites in Texas and other 
places that were affected by taking out the server.
    The reason these debates come up is--it was partly alluded 
to in my written remarks, in that there are many who believe 
that keeping these sites up provides an intelligence value. And 
so the fight between DOD and the Intelligence Community was 
that if you leave it up, we could continue to observe and learn 
more about what these individuals are doing. And that is the 
primary push from the Intelligence Community's perspective is 
always to gather more information to connect the dots.
    It was healthy, I think, that we had that debate between 
taking it out and leaving it up, but it was an ad hoc one 
through a task force, rather than an agency or a division 
within an agency structure to force us to have that type of 
communication.
    Mr. Sherman. Now, with regard to sites that are not 
maintained by ourselves or other governments that we are 
cooperating with, are we able to determine at least the e-mail 
address of those who are visiting the sites?
    Mr. McNeal. Not necessarily the e-mail address, but IP 
address logs, server logs, can tell us----
    Mr. Sherman. That is only if the Web site server and 
provider cooperates with us. So if there is, for example, in 
Iran a Web site server and the Iranian Government chooses not 
to cooperate with us, then by monitoring the site we can know 
what the terrorists want to say, but we have no idea who they 
are saying it to.
    Mr. McNeal. For the most part, that is correct, Mr. 
Chairman. There are people who, through covert methods, can 
infiltrate networks and find information out irrespective of 
the location of the network.
    The bigger challenge, I think, is that, particularly with 
regard to foreign Web hosts, is that because they are beyond 
the reach oftentimes of U.S. laws, we don't have a lot of ways 
to turn the screws to them, unless we were to back out sort of 
one level from that site and, almost like a trade embargo, say 
that you, Web provider, can no longer do Internet business with 
U.S. service providers if you continue to provide service to 
that Web site.
    And then the Iranian company, to use your example, would 
have to choose between supporting this one Web site or losing 
all of its commercial traffic from the United States. I think 
that would probably be an easy choice.
    Mr. Sherman. But the argument is gathering intelligence 
versus taking down the terrorist site. And the question is, are 
we really able to gather valuable intelligence? And there are 
two aspects of this intelligence: What do terrorists want to 
say? Second, which individuals seem interested in what 
terrorists have to say--which, by the way, includes many people 
in this room.
    And you are saying that the second type of information is 
probably available only with the cooperation of the site Web 
provider.
    Mr. McNeal. These are more forums than Web sites, so unless 
an individual posing as a member of the forum could get inside 
and be seen as a legitimate person who is communicating and 
supporting ongoing activities.
    Mr. Sherman. And even if you knew somebody was part of that 
forum, they might not use their real name.
    Mr. McNeal. Right. But the goal, Mr. Chairman, would be to 
engage that person in conversation about operational plots they 
might want to take part in, and then go from the cyber world to 
the real world. There are some examples of us doing this in 
cooperation with law enforcement in Europe.
    Mr. Sherman. Well, I think we end this hearing with more 
specific knowledge, but we end this hearing in the same 
position; and that is that we will use the Internet for our own 
public diplomacy effort. We will certainly monitor what 
terrorists have to say, and that will help us with our own 
public diplomacy. And we will occasionally be able to detect 
who on these sites mean us harm.
    But we are unsuccessful in taking down sites--often we are 
unsuccessful--by sending people letters, and we are manifestly 
unable to take down these sites through cyber attack, because 
we are constrained by our own politeness. And being polite is 
good as long as it doesn't cost American lives.
    So I thank everyone for coming. Additional statements can 
be made for the record. I believe we are being called for a 
vote. I want to thank our vice chair and our ranking member for 
being here at the hearing.
    Thank you.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record




                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
